SUPREME COURT OF GEORGIA
Case No. S21H0182
February 01, 2021

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.

KIERA SHANICE GRAHAM v. BROOKS BENTON, WARDEN.
Upon consideration of the application for certificate of
probable cause to appeal the denial of habeas corpus, it is ordered
that it be hereby denied.
All the Justices concur.

Trial Court Case No. 19CV0344

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

, Clerk

# EFILED IN OFFICE
CLERK OF SUPERIOR COURT
HABERSHAM COUNTY, GEORGIA

19CV0344
IN THE SUPERIOR COURT OF HABERSHAM
STATE OF GEORGIA
KEIRA SHANICE GRAHAM,
GDC# 1001154592,

*
*

RUSSELL W. SMITH
COUNTY JUL
30, 2020 09:41 AM

CIVIL ACTION NO.
19CV0344RS

Davkl Wall, Clerk
Habersham County, Georgia

*
*

Petitioner,

*
*

vs.

HABEAS CORPUS

*

BROOKS BENTON, Warden,

*
*

Respondent.

*

FINAL ORDER
This case came before the Court for hearing on December 10, 2019, in
which Petitioner is challenging the validity of her Thomas County
convictions for felony murder and first degree arson, arising from a guilty
plea. Upon consideration of the record as established at the December 2019
hearing1, the Court denies relief, based on the following findings of fact and
conclusions of law.
I. Procedural History
In February 2013 Petitioner was indicted with Alvin Davis, Chaquel
Cook, and Kimberly Williams by a Thomas County grand jury for malice
murder (count l), felony murder (count 2), armed robbery (count 3),

1 Citations to testimony at the December 2019, hearing (pages 1-61) are “HT”
followed by the page number(s). Citations to the exhibits, which appear after
page 62 and sequentially paginated as 001-206, are “Ex” followed by the page
number(s).
ROOD JUL 212020
JUDGE RUSSELL VL SMITH
. SUPERIOR C0DR9 JUDGE

aggravated assault (count 4), hijacking a motor vehicle (count 5), arson in
the first degree (count 6), and cruelty to children in the first degree (count 7)
in connection with the shooting death of Hassan Hana Williams in July
2012. (Ex. 18*28). Cook was also indicted for possession of a firearm during
commission of a felony. Id.
Pursuant to a negotiated plea agreement, on September 12, 2013,
Petitioner pleaded guilty to felony murder (count 2) and received a life
sentence, armed robbery (count 3) and received a fife sentence but it was
merged with count 2, and arson in the first degree (count 6) and received 20
years concurrent. (Ex. 87*92, 95, 108*10, 135*55). A judgment of nolle
prosequi was entered on the remaining counts. Id. at 93.
On October 3, 2013, her plea counsel Jason Moon filed a “motion for
new trial and withdrawal of guilty plea." (Ex. 112). Attached to the motion
was a handwritten letter from Petitioner in which she expressed her
dissatisfaction with counsel and said she was “pressured” to take the plea.
Id. at 114.
On September 10, 2014, Moon filed a motion to withdraw as counsel.
(Ex. 120). New counsel Wade Krueger entered his appearance on
Petitioner’s behalf on June 22, 2015. (Ex. 131).
Pursuant to a hearing on February 15, 2016, at which Petitioner and

2

Moon testified, the trial court denied the motion to withdraw the guilty plea
on February 18, 2016. (Ex. 134, 157-84).
Krueger pursued an appeal on Petitioner’s behalf from that order and
enumerated one error: Petitioner’s guilty plea was not knowing, intelligent
and voluntary, as counsel’s “misleading statements” to Petitioner about the
death penalty were coercive and her consent to waive trial was not validly
obtained. (Ex. 187, 193-94).
The Supreme Court affirmed the trial court’s ruling, concluding that
the guilty plea was voluntary and the trial court did not abuse its discretion
in denying the motion to withdraw the plea. See_Graham v. State, 300 Ga.
620, 797 S.E.2d 459 (2017).
Petitioner filed this petition on June 25, 2019, in which she challenges
the validity of these convictions. She raises two grounds, alleging that she
received ineffective assistance of counsel in connection with her guilty plea
and with her motion to withdraw her plea and appeal.
Both of Petitioner’s former attorneys testified at the December 2019
hearing in this case, as did Petitioner. (HT.13, 31, 40).
II. The Grounds of the Petition
A. Ground 1
In ground 1 Petitioner alleges she received ineffective assistance in
connection with her guilty plea. She alleges counsel was ineffective in three
3

instances when counsel: (a) did not move to sever her trial from the co­
defendants; (b) waived her presence at arraignment; and (c) did not produce
a complete copy of all discoverable material to her, particularly evidence
favorable to her.
These claims are procedurally defaulted under O.C.G.A. § 9-14'48(d), as
they were not raised in the motion to withdraw the guilty plea - i.e. the
“earliest practicable moment” in which such claims could be raised when
Petitioner changed counsel, and in the appeal therefrom. Wright v. Hall,
281 Ga. 318, 319(l), 638 S.E.2d 270 (2006); Fortson v. State, 272 Ga. 457,
532 S.E.2d 102 (2000); White v. Kelso, 261 Ga. 32, 401 S.E.2d 733 (1991);
Black v. Hardin, 255 Ga. 239, 336 S.E.2d 754 (1985).
Cause to excuse a default under O.C.G.A. § 9-14-48(d) may be
constitutionally ineffective counsel under the standard of Strickland v.
Washington, 446 U.S. 668 (1984). Turpin v. Todd, 268 Ga. 820, 826, 493
S.E.2d 900 (1997). Actual prejudice can be shown by satisfying either the
prejudice standard of Strickland or the actual prejudice test of United States
v. Frady, 456 U.S. 152 (1982). Todd, 268 Ga. at 829. Frady requires that a
petitioner show not merely that errors at trial created a possibility of
prejudice, but that the errors “worked to his actual and substantial
disadvantage, infecting his entire trial with error of constitutional
dimensions.” Frady, 456 U.S. at 170. “[A] habeas petitioner who meets both
4

prongs of the Strickland test has established the necessary cause and
prejudice to overcome the procedural bar of OCGA § 9-14-48(d).” Battles v.
Chapman, 269 Ga. 702, 506 S.E.2&838 (1998).
For reasons set for below in Section B, Petitioner has not established
cause and actual prejudice as defined, under state law to excuse her failure,
to have timely raised these claims in the motion to withdraw her guilty plea
and the appeal therefrom. Ground 1 provides no basis for relief.
B. Ground 2
In ground 2 Petitioner alleges she received ineffective assistance of
counsel in connection with her motion to withdraw her guilty plea and the
appeal. She alleges appellate counsel was ineffective when counsel: (a) did
not allege that plea counsel was ineffective for not filing a motion to sever
and for waiving her presence at arraignment; (b) did not show that plea
counsel had favorable or exculpatory evidence; (c) did not obtain a copy of
discovery and the case file from plea counsel; (d) did not investigate plea
.*

•

i

V.

counsel’s “ineffectiveness”; (e) did not investigate facts; and (f) did not
prepare Petitioner for the hearing on the motion to withdraw. Petitioner
clarified that she told appellate counsel that she wanted a copy of discovery
to clear up matters about what had happened and “discrepancies” in
people’s statements. (HT. 46).

5

. Findings of Fact and Conclusions of Law
Petitioner was represented on the charges and at the plea hearing by
Jason Moon, a practicing attorney since 2004 whose practice was half
criminal and half civil and had handled several hundred guilty pleas and
five to ten jury trials when he began representing her. (HT. 14, 18-19). She
was represented in the motion to withdraw proceeding and the appeal
therefrom by public defender Wade Kreuger, a practicing attorney since
2005 who had handled hundreds of guilty pleas and several appeals at the
/'

time he represented her. (HT 31, 32),
- Moon was appointed to represent Petitioner shortly after her arrest.
(HT. 14). Moon’s general custom and practice for arraignment was to talk
with the client beforehand, explain the process, and then file a waiver of
arraignment and enter a guilty plea on the client’s behalf so that clients who
were out on bond would not have to miss work by attending court and those
who were incarcerated would not have to be taken out of their cells. (HT.
19-20). Moon had no reason to think that he did not follow that practice in
this case. Id. Had Petitioner expressed a desire to attend arraignment, he
would have attended arraignment with her. Id. at 19.
Moon obtained discovery from the State and went over all of it with
Petitioner, including the discs which he showed to her using his laptop.
(HT. 15, 17). This discovery included videos, pictures, the evidence against
6

her, police reports, and the autopsy report. (HT. 17, 21). Counsel was not
able to give Petitioner copies of the discs, as she was in jail and could not
keep them. (HT. 21).
Moon’s investigation of the case revealed that Petitioner had known the
victim from being in the Army together, they had had a physical
relationship back then, and he came down from Virginia after being in
contact with her and showed up one morning outside her apartment. (HT
15*16). Petitioner’s boyfriend took the victim out into the countryside,
accompanied by Petitioner’s five-year old child and Petitioner’s roommate,
where the victim was shot in the back and then shot in the back of the head.
(HT. 16). Petitioner, who had stayed behind at the apartment, brought
some bleach to the site, and they burned the victim’s car. (HT. 16, 17).
Some of the photos of surveillance provided in discovery showed Petitioner
getting the bleach. (HT. 17). ' Petitioner’s five-year old child witnessed the
-entire incident. (HT. 16).2

2 The State’s factual basis at the plea hearing was that Petitioner,
individually and as a party to a crime: committed the offense of felony
murder by causing the death of Hassan Williams, while in the commission of
the offenses of armed robbery and aggravated assault, by multiple gunshot
wounds to the head and back; committed the offense of armed robbery when,
with the intent to commit a theft, took a GPS, property of Williams, by use of
a Jiminez .380 firearm; and committed the offense of arson in the first degree
by knowingly damaging by means of a fire a 1995 Mercedes vehicle, owned by
Williams, at Millpond Road. (Ex. 147-48). Petitioner admitted that this was
what had occurred. (Ex. 148).
7

Counsel’s investigation led him to conclude there was “no question as to
the arson,” so it became a question of whether Petitioner went to trial as a
party to murder and to armed robbery. (HT. 16). There were also witnesses
to the events and what Petitioner told them. (HT. 17f. 'There was little
exculpatory information in the discovery, 'as surveillance photos showed
Petitioner getting the bleach, ^Petitioner’s phone records showed contact
with the victim prior to his coming to Georgxal and counsel’s discussions
• with her revealed that she had not told the victim about her boyfriend. (HT.
26, 27). Had the case gone to trial, the defense would have been that
Petitioner was not present when the murder occurred. (HT. 27). However,
they had also discussed felony murder and the differences between it and
malice murder. (HT. 27).
Moon did not file a motion to sever Petitioner’s trial as they were still
in plea negotiations when he was able to obtain a favorable plea offer. (HT.
20). Moon would have filed a motion to sever closer to the time of trial had
there been a trial. (HT. 20, 21).
Following his appointment, Krueger requested a copy of the plea
hearing transcript and sentencing, arranged to and met with Petitioner to
discuss potential claims, spoke with plea counsel Moon about the case, and
talked with the prosecuting attorney about the case. (HT. 32-34). Krueger
could not recall if he obtained a copy of Moon’s file. (HT. 34). Regardless of
. 8

whether he had a copy of Moon’s file, Krueger thought he was able to
conduct a full and sufficient investigation. (HT. 37).
Krueger’s review of the plea transcript, indictment, and sentence
showed “nothing out of order” and there was nothing to challenge. (HT. 35).
In discussing potential ineffectiveness claims with Petitioner, the only
thing she told Krueger was that she had wanted to go to trial, but that Moon
told her that she would get the death penalty if she did. (HT. 34). She
identified no other potential issues. (HT. 35).
Krueger did not see a viable issue to raise about Moon's not having
filed a motion to sever given that Petitioner’s case was resolved by a guilty
plea. (HT. 35, 36). Krueger similarly saw no viable issue to raise about
Moon’s waiving arraignment, as it did not bear upon the voluntariness of
the guilty plea. (HT. 36).
Petitioner has the burden under Strickland v. Washington, 466 U.S.
668 (1984), to show that attorney Krueger’s performance was deficient and
that she was prejudiced as a result of his purported errors.
Where the claim is that appellate counsel was ineffective for not
raising a particular issue on appeal, a petitioner must overcome the “strong
presumption” that appellate counsel’s actions fell within the range of
reasonable professional conduct and affirmatively show that appellate
counsel’s decision not to raise the issue “was an unreasonable one which
9

only an incompetent attorney would have made.” Griffin u. Terry, 291 Ga.
326, 337, 729 S.E.2d 334 (2012) (citations omitted). To establish prejudice, a
petitioner must show that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different. Id.
Where the claim is that appellate counsel was ineffective for not
raising claims of trial counsel ineffectiveness, “two layers of fact and law are
involved in the analysis of the habeas court’s decision.” Gramiak v. Beasley,
304 Ga. 512, 820 S.E.2d 50 (2018). To find that appellate counsel provided
ineffective assistance, a reviewing court must determine that appellate
counsel’s performance was deficient in not raising the issue. Id. at 513. If
appellate counsel’s performance is found to be deficient, then the petitioner
must establish prejudice, which requires a showing that, had the trial
counsel ineffectiveness claim been raised on appeal, there is a reasonable
probability that the outcome of the appeal would have been different. Id.
“This, in turn, requires a finding that trial counsel provided deficient
representation and that the defendant was prejudiced by it.” Id.
The Strickland standard applies in the guilty plea context. Hill v.
Lockhart, 474 U.S. 52, 58 (1985). The attorney performance prong of the test
in this setting is simply a restatement of attorney competence set forth in
Tollett v. Henderson, 411 U.S. 258 (1973), and McMann u. Richardson, 397
U.S. 759 (1970), which is that counsel’s advice fall within the range of
10

competence demanded of attorneys in criminal cases. Hill, 474 U.S. at 56, 58.
The prejudice prong looks to “whether counsel’s constitutionally ineffective
performance affected the outcome of the plea process” and requires a showing
of a reasonable probability that, but for counsel’s errors, the petitioner would
not have pleaded guilty and would have insisted on a trial. Hill, 474 U.S. at
59.
Petitioner has not shown that attorney Krueger’s performance was
deficient. He met with Petitioner to identify potential claims of ineffective
assistance of plea counsel, spoke with plea counsel and the prosecuting
attorney, and reviewed the plea transcript and other documents in the case.
He saw no basis on which to allege that plea counsel’s performance was
deficient for reasons other than the one he raised in the motion to withdraw
and on appeal, which was that plea counsel had coerced the guilty plea
through remarks about the death penalty. That Krueger may or may not
have had Moon’s file did not prevent him from investigating the case and
identifying potential issues.
Since Petitioner pleaded guilty, Krueger reasonably concluded there
were no ineffective assistance claims to pursue based on the lack of a
severance motion and the waiver of Petitioner’s presence at arraignment.
Moon would have filed a severance motion closer to the time of a trial. Under
O.C.G.A. § 17-8-4, if the death penalty is not being sought, a trial court has
11

broad discretion to decide if defendants will be tried jointly or separately.
See, e.g., Floyd v. State, 307 Ga. 789; 795 (1), 837 S.E.2d 790 (2020). At
arraignment, the plea of the accused shall be entered and the case set for
trial if a plea of not guilty is entered. See O.C.G.A. § 17-7-91(b). At
arraignment, the indictment or accusation is to be read to the person accused
of committing a crime. See O.C.G.A. §17-7-93(a). Moon waived arraignment,
which meant that the indictment Was not read aloud to Petitioner in open
court, and entered a plea of not guilty on her behalf, which meant that her
case would be placed on a trial calendar.
Petitioner has also failed to establish the requisite prejudice from
Krueger’s decision not to allege that Moon was ineffective for the reasons now
asserted by Petitioner. Since Petitioner pleaded guilty and there was no
trial, the severance issue became moot. Though Moon waived arraignment,
Moon did go over the indictment with Petitioner and did explain the charges
to her, as well as the elements of the offenses. (HT. 18). Though Moon could
not provide copies of the discovery discs to Petitioner, he showed them to her
on his laptop and went over all of the discovery with her. Petitioner has not
•Shown there was information favorable to her in discovery that Moon did not
use or that there was additional information that he did not get. Not only
has Petitioner failed to show that Moon’s performance was deficient, but she
had not shown that, but for Moon’s purported errors, she would not have
12

pleaded guilty but would have gone to trial. In other words, she has not
shown that she had meritorious plea counsel ineffectiveness claims that
Krueger did not raise. Gramiak,- 304 Ga. at 513.
Finally, Petitioner contends that Krueger did not prepare her for the
hearing on the motion to withdraw her guilty plea, but she did not question
him about this claim nor otherwise identify what he could or should have
done to prepare her. She has not shown that his performance was deficient
in this regard and that she was prejudiced as a result.
Ground 2 lacks merit.

13

CONCLUSION
Wherefore, the petition is denied.
If Petitioner desires to appeal this order, Petitioner must file an
application for a certificate of probable cause to appeal with the Clerk of the
Supreme Court of Georgia within thirty (30) days from the date this order is
filed. Petitioner must also file a notice of appeal with the Clerk of the
Superior Court of Habersham County within the same thirty (30) day period.
The Clerk of the Superior Court is hereby DIRECTED to mail a copy of
this order to Petitioner, Respondent, and the Office of the Georgia Attorney
General.
SO ORDERED, this"3^1 day of

2020.

<r"
(

RUSSELL W. sktTH, Chief Judge
Mountain Judicial Circuit
Prepared by:
Paula K. Smith
Senior Assistant Attorney General
Georgia Department of Law
40 Capitol Square, SW
Atlanta, Georgia 30334
404 656-335r
psmith@law. ga.gov

14

